Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  MEDICARE PAYMENTS FOR
 DRUGS USED TO TREAT WET
  AGE-RELATED MACULAR
      DEGENERATION




                    Daniel R. Levinson
                     Inspector General

                       April 2012
                     OEI-03-10-00360
EXECUTIVE SUMMARY: MEDICARE PAYMENTS FOR DRUGS USED TO
TREAT WET AGE-RELATED MACULAR DEGENERATION
OEI-03-10-00360

WHY WE DID THIS STUDY

Wet age-related macular degeneration (AMD), a leading cause of vision loss in people aged
60 and older, affects millions of Americans. Lucentis is a Medicare Part B-covered drug
approved by the Food and Drug Administration (FDA) for the treatment of wet AMD.
Avastin is a Part B-covered drug approved by FDA for the treatment of various forms of
cancer, but smaller doses of the drug are being used off-label to treat wet AMD. A dose of
Avastin used to treat wet AMD costs a small fraction of the cost of a dose of Lucentis. The
Centers for Medicare & Medicaid Services (CMS) established a national Medicare payment
amount for Lucentis; however, there is no national Medicare payment amount for Avastin
when used to treat wet AMD in a physician’s-office setting. In 2010, combined Part B
expenditures for Lucentis and Avastin totaled nearly $2 billion.

HOW WE DID THIS STUDY

Using Medicare claims data, we selected 2 stratified random samples: 1 sample of
160 physicians who received Medicare payment for Lucentis and 1 sample of
160 physicians who received Medicare payment for Avastin. We sent electronic surveys
asking physicians to provide the total dollar amount and quantity purchased of Lucentis
and Avastin in the first quarter of 2010. We also asked physicians to describe the factors
that they consider when choosing Avastin instead of Lucentis for the treatment of wet
AMD. We compared physician acquisition costs to Medicare payment amounts obtained
from CMS and Medicare contractors. Additionally, we analyzed Medicare contractor
payment policies and the reasons physicians reported for administering Avastin instead of
Lucentis.

WHAT WE FOUND

In the first quarter of 2010, physician acquisition costs for Lucentis and Avastin were
5 and 53 percent below the Medicare payment amount, respectively. Medicare
contractors’ payment amounts for Avastin when used to treat wet AMD differed by as
much as 28 percent, although payment policies were similar. Additionally, we found that
the majority of physicians who administered Avastin to treat wet AMD reported the
substantial cost difference compared to Lucentis as a primary factor in their decision.

WHAT WE RECOMMEND

We recommend that CMS (1) establish a national payment code for Avastin when used
for the treatment of wet AMD and (2) educate providers about the clinical and payment
issues related to Lucentis and Avastin. CMS did not concur with our first
recommendation at this time but did concur with our second recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................5
Findings......................................................................................................10
           Physician acquisition costs for Lucentis were 5 percent below the
           Medicare payment amount in the first quarter of 2010..................10
           Physician acquisition costs for Avastin were 53 percent below the
           average Medicare contractor payment amount in the first quarter
           of 2010; however, these acquisition costs were nearly four times
           the rescinded national Medicare payment amount from the
           previous quarter .............................................................................10
           Contractors’ payment amounts for Avastin differed by as much
           as 28 percent, although payment policies were similar ................. 11
           The majority of physicians who administered Avastin to treat
           wet AMD reported the substantial cost difference compared to
           Lucentis as a primary factor in their decision ................................12
Conclusion and Recommendations ............................................................13
           Agency Comments and Office of Inspector General Response.....14
Appendixes ................................................................................................15
           A: Confidence Intervals ................................................................15
           B: Agency Comments ...................................................................16
Acknowledgments......................................................................................18
                  OBJECTIVES
                  1. To compare the Medicare payment amount for Lucentis to physicians’
                       acquisition costs.
                  2. To determine the average Medicare contractor payment amount for
                       Avastin when used to treat wet age-related macular degeneration
                       (AMD) and compare it to physicians’ acquisition costs.
                  3. To examine Medicare contractor payment policies for Avastin when
                       used to treat AMD.
                  4. To examine the factors considered by physicians when choosing
                       Avastin for the treatment of AMD.

                  BACKGROUND
                  AMD, a leading cause of vision loss in people aged 60 and older, affects
                  millions of Americans, according to the National Eye Institute (NEI), part of
                  the National Institutes of Health (NIH). Wet AMD is an advanced form of
                  the disease that reduces the ability to see objects clearly and inhibits the
                  performance of common daily tasks, such as reading and driving.
                  Lucentis is a Part B-covered drug approved by the Food and Drug
                  Administration (FDA) for the treatment of wet AMD. Avastin is a
                  Part B-covered drug approved by FDA for the treatment of various forms of
                  cancer, but smaller doses of the drug (usually prepared for an additional cost
                  by compounding pharmacies) are being used off-label to treat wet AMD. 1 A
                  dose of Avastin used to treat wet AMD costs a small fraction of the cost of a
                  dose of Lucentis. In 2010, combined Part B expenditures for Lucentis and
                  Avastin totaled nearly $2 billion.
                  Medicare Part B Coverage of Prescription Drugs
                  Although Medicare Part D covers most outpatient prescription drugs, the
                  Centers for Medicare & Medicaid Services (CMS) continues to cover a
                  limited number of outpatient prescription drugs and biologicals
                  (hereinafter referred to as drugs) under its Part B benefit. Part B-covered
                  drugs generally fall into the following categories: drugs furnished incident
                  to a physician’s service (e.g., injectable drugs such as Lucentis and
                  Avastin); drugs explicitly covered by statute (e.g., some vaccines and oral
                  anticancer drugs); and drugs used in conjunction with durable medical




                  1
                   The term “off-label use” refers to the prescribing of FDA-approved medications by
                  physicians for purposes outside the scope of the drugs’ approved labels.


Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)       1
                  equipment (e.g., inhalation drugs). 2 Medicare beneficiaries can receive
                  Part B-covered drugs in several settings, including physicians’ offices and
                  hospital outpatient departments.
                  Medicare Part B Payments for Prescription Drugs
                  CMS contracts with private companies (i.e., contractors) to process and
                  pay Medicare Part B claims, including those for prescription drugs. 3 To
                  obtain payment for covered outpatient prescription drugs, health care
                  providers submit claims to their Medicare contractors using codes
                  established by CMS, called Healthcare Common Procedure Coding
                  System (HCPCS) codes. 4 In 2010, Medicare and its beneficiaries spent
                  $12 billion for Part B drugs.
                  Payment Methodology for Part B Drugs
                  CMS pays physicians for most Part B-covered drugs using a methodology
                  based on average sales prices (ASP). 5 The ASP is defined as a
                  manufacturer’s sales of a drug to all purchasers in the United States in a
                  calendar quarter divided by the total number of units of the drug sold by the
                  manufacturer in that same quarter. 6 Manufacturers provide CMS with the
                  ASP and volume of sales for their drugs on a quarterly basis. 7
                  As required by law, CMS sets a single national payment amount for most
                  Part B-covered prescription drugs at 106 percent of the volume-weighted
                  ASP. 8 Medicare beneficiaries are generally responsible for 20 percent of this
                  amount in the form of coinsurance.




                  2
                    Section 1861(s)(2) of the Social Security Act (the Act), 42 U.S.C. § 1395x(s)(2); 42 CFR
                  § 414.900(b) and CMS, Medicare Benefit Policy Manual (BPM), Pub. 100-02, ch. 15, § 50.
                  3
                    CMS is transitioning from a system of fiscal intermediaries and carriers to Medicare
                  Administrative Contractors. Medicare contracting reform was mandated by the Medicare
                  Prescription Drug, Improvement, and Modernization Act of 2003, P.L. 108-173 § 911 (Dec. 8,
                  2003).
                  4
                    HCPCS codes provide a standardized system for describing the specific items and services
                  provided in the delivery of health care. In the case of prescription drugs, each HCPCS code
                  defines the drug name and the amount of drug represented by the code but does not specify
                  manufacturer or package size information.
                  5
                    Several Part B drugs, including certain vaccines and blood products, are not paid under the
                  ASP methodology. See sections 1847A(a)(1) and 1842(o)(1) of the Act, 42 U.S.C.
                  §§ 1395w-3a(a)(1) and 1395u(o)(1).
                  6
                    Per section 1847A(c) of the Act, the ASP is net of any price concessions, such as volume
                  discounts, prompt pay discounts, cash discounts, free goods contingent on purchase
                  requirements, chargebacks, and rebates other than those obtained through the Medicaid drug
                  rebate program. Sales that are nominal in amount are exempted from the ASP calculation, as
                  are sales excluded from the determination of “best price” in the Medicaid drug rebate
                  program.
                  7
                    Sections 1847A(f) and 1927(b)(3) of the Act, 42 U.S.C § 1396r-8(b)(3).
                  8
                    Section 1847A(b) of the Act.


Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)             2
                  Part B-Covered Drugs Used to Treat Wet AMD
                  Lucentis, which was approved by FDA in 2006 to treat wet AMD, is
                  manufactured by Genentech. This drug is sold in single-use vials and
                  administered by physicians through a monthly 0.5-mg intravitreal
                  injection (i.e., delivered via the eye). Genentech also manufactures
                  Avastin, which FDA approved in 2004 to treat various forms of cancer.
                  Ophthalmologists also use Avastin in an off-label manner to treat wet
                  AMD. When using Avastin to treat wet AMD, physicians typically inject
                  a much smaller amount of it (1.25 mg per month) than when the drug is
                  used in cancer treatments. 9
                  Both Lucentis and Avastin are typically administered by physicians in an
                  office setting. However, Avastin is sold by Genentech in 100-mg or 400-mg
                  vials that are intended for use in treating cancer. The smaller (1.25-mg)
                  Avastin dose used to treat wet AMD must be prepared in a sterile
                  environment through a process known as compounding. 10, 11 Compounding
                  is a pharmacy practice that enables physicians to prescribe—and patients to
                  take—medicines that are specially prepared by pharmacists to meet patients’
                  individual needs. 12
                  Physicians who use Avastin to treat wet AMD obtain the drug primarily
                  through two methods. Some physicians purchase Avastin in 100-mg or
                  400-mg vials and send the vials to compounding pharmacies. Therefore,
                  in addition to the cost of acquiring Avastin, these eye doctors typically
                  incur separate compounding costs. Other physicians purchase
                  ready-to-use syringes prefilled with smaller doses of Avastin, directly from
                  a compounding pharmacy. In these cases, the drug costs and
                  compounding costs are combined into a single price.
                  Medicare Payment for Lucentis and Avastin
                  For Lucentis, physicians bill for and are paid under HCPCS code J2778.
                  The Medicare payment amount for one dose of Lucentis administered in a
                  physician’s office, typically 0.5 mg (one vial), was $2,023 in the first quarter


                  9
                    Physicians administer approximately 1.25 mg of Avastin every 4 to 6 weeks to treat wet
                  AMD. However, physicians could administer hundreds of milligrams of Avastin per cancer
                  treatment depending on the patient’s weight and type of cancer. For example, a 150-pound
                  person being treated for lung cancer could be administered approximately 1,000 mg of
                  Avastin every 3 weeks.
                  10
                     James Folk, M.D. Avastin. Accessed at http://www.medrounds.org on May 19, 2011.
                  11
                     Because Avastin is packaged in 100- and 400-mg vials that exceed the 1.25-mg dose
                  commonly used for treating wet AMD, physicians often use compounding pharmacies to
                  repackage the drug into single-use syringes that contain the smaller dose for intravitreal use.
                  In August 2011, in response to a cluster of eye infections traced to patients who had received
                  Avastin repackaged by a pharmacy in Florida, FDA alerted health care professionals of
                  infection risk from repackaged Avastin intravitreal injections.
                  12
                     Compounding is not exclusive to drugs used for off-label purposes.


Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)                    3
                  of 2010. In total, Medicare and its beneficiaries spent $1.1 billion for
                  Lucentis in 2010.
                  As of September 2011, CMS does not have a single HCPCS code or
                  payment amount for Avastin when used to treat wet AMD in a
                  physician’s-office setting. Medicare contractors that process and pay claims
                  determine the Medicare payment amount for Avastin used to treat wet
                  AMD. 13 The contractors also instruct physicians administering Avastin in an
                  office setting to use the HCPCS codes for unclassified drugs (J3490),
                  unclassified biologics (J3590), or Avastin used to treat cancer (J9035).
                  Regardless of the HCPCS code used, the Medicare payment amount for one
                  Avastin dose used to treat wet AMD is always substantially less than the
                  Medicare payment amount for Lucentis. In total, Medicare and its
                  beneficiaries spent $27 million for Avastin used to treat wet AMD in 2010. 14
                  In August 2009, CMS announced that it would create a new HCPCS code
                  (Q2024), to take effect in the fourth quarter of 2009, for the use of Avastin
                  in treating wet AMD. This change would have set a national Medicare
                  payment amount at $7.185 for every 1.25-mg dose (an amount determined
                  by taking the payment amount for the 10-mg dose of Avastin and dividing
                  it by 8). 15 Some doctors expressed concern that this new payment amount
                  would not cover the extra compounding costs that they incurred when
                  using Avastin to treat wet AMD. In an October 2009 letter to CMS, a
                  member of Congress noted this concern, writing that the new payment
                  policy could cause physicians to switch from Avastin to the more
                  expensive Lucentis. This, in turn, would have resulted in higher payment
                  amounts and coinsurance for Medicare and its beneficiaries. In
                  November 2009, CMS decided to rescind the new payment code (Q2024)
                  and policy. Payment reverted to the previous codes established by
                  individual Medicare contractors.
                  National Eye Institute Study
                  In 2008, NEI began the Comparison of AMD Treatments Trials (CATT) to
                  assess the safety and effectiveness of Lucentis and Avastin to treat wet
                  AMD. NEI is also determining whether both drugs remain effective when
                  doses are administered more than 1 month apart.



                  13
                     Off-label use is covered by Medicare if the Medicare contractor determines the use to be
                  medically accepted. See BPM, ch. 15, § 50.4.2. Moreover, Medicare contractors determine
                  pricing for compounded drugs. See BPM, ch. 17, § 20.1.2.
                  14
                     Because there is not a unique HCPCS code for Avastin used to treat wet AMD, we
                  projected a total based on Part B claims data.
                  15
                     When CMS created the new HCPCS code Q2024 to pay for Avastin used to treat wet
                  AMD, it took the payment amount for J9035 ($57.479) and divided it by 8, arriving at an
                  amount of $7.185.


Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)                4
                  In April 2011, NEI released the preliminary results from the first year of
                  the CATT. NEI found that Avastin was as effective as Lucentis in treating
                  wet AMD. 16 It also found evidence that Avastin and Lucentis could be
                  administered effectively at longer intervals than the normal
                  once-per-month schedule. Finally, NEI found that “serious adverse events
                  (primarily hospitalizations)” occurred at a rate of 24 percent for patients
                  receiving Avastin and a rate of 19 percent for patients receiving Lucentis.
                  However, NEI was unable to determine a causal link between the type of
                  treatment and particular adverse events. Longer term study results will
                  provide additional information about the relative safety and efficacy of
                  Avastin and Lucentis.
                  Related Office of Inspector General Work
                  A September 2011 Office of Inspector General (OIG) audit report 17 found
                  that if Medicare reimbursement for all beneficiaries treated for wet AMD
                  with Avastin or Lucentis had been based on the Avastin payment amount,
                  Medicare and its beneficiaries would have saved approximately
                  $1.4 billion. Twenty percent of these savings would have been from
                  decreases in beneficiary copayments. Conversely, the report found that if
                  Medicare reimbursement for all beneficiaries treated for wet AMD with
                  Avastin or Lucentis had been based on the Lucentis payment amount,
                  spending for Medicare and its beneficiaries would have increased by
                  $1.9 billion. Similarly, 20 percent of that total would have been from
                  increases in beneficiary copayments. OIG recommended that CMS
                  (1) consider the results of that report when evaluating coverage and
                  reimbursement policies related to Avastin and Lucentis and (2) seek
                  additional authority as necessary to control Part B drug expenditures.

                  METHODOLOGY
                  Data Sources and Collection
                  Sample Selection. We extracted all Part B drug claims for Lucentis
                  (HCPCS code J2778) and Avastin (HCPCS codes J3490, J3590, J9035,
                  and Q2024) with dates of service in the first quarter of 2010 from CMS’s
                  National Claims History File. The sampling frame for this analysis
                  included only claims associated with the treatment of wet AMD in
                  ophthalmologists’ offices in the 50 States and the District of Columbia
                  based on the claims’ HCPCS codes, physician specialty code, diagnosis
                  code, place of service code, and procedure code for related treatment. See
                  Table 1 for a detailed description of the criteria for claims selection.

                  16
                     NEI, NIH Study finds Avastin and Lucentis are equally effective in treating age-related
                  macular degeneration, April 2011. Accessed at http://www.nei.nih.gov on May 4, 2011.
                  17
                     OIG, Review of Medicare Part B Avastin and Lucentis Treatments for Age-Related Macular
                  Degeneration (A-01-10-00514), September 2011.


Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)          5
                         Table 1. Claims Selection Criteria

                          Criteria                         Value for Inclusion in Sampling Frame

                          HCPCS Code                       J2778 (Lucentis); J3490, J3590, J9035, Q2024 (Avastin)
                          Physician Specialty Code         18 (ophthalmologist)
                          Diagnosis Code                   36252 (exudative (wet) senile macular degeneration, i.e., wet AMD)
                          Place of Service                 11 (office)

                          Procedure Code for               67028 (intravitreal (eye) injection)
                          Related Treatment
                         Source: Part B claims data dictionary, OIG analysis of Part B claims data, 2010.

                          After selecting the claims that met the above criteria, we grouped them by
                          prescribing physician and summarized the claims data in each group.
                          From these summarized data, we selected 2 stratified random samples:
                          1 sample of 160 physicians who received Medicare payment for Lucentis
                          and 1 sample of 160 physicians who received Medicare payment for
                          Avastin. To increase the precision of our estimates and to keep the sample
                          size within reason, we stratified each sample based on total allowed
                          charges for administering Avastin or Lucentis.18 See Table 2 for a
                          description of our sampling frame.
            Table 2. Sampling Frame

                                                                                         Number of Physicians                 Number of
             Description of Stratum
                                                                                                in Population       Physicians in Sample



                          Physicians with allowed charges ≤ $190,000 in the
                                                                                                            1,334                      68
                          first quarter of 2010
             Lucentis




                          Physicians with allowed charges > $190,000 in the
                                                                                                             369                       92
                          first quarter of 2010


                        Total                                                                               1,703                      160

                          Physicians with allowed charges ≤ $4,600 in the
                                                                                                            1,623                      67
                          first quarter of 2010
             Avastin




                          Physicians with allowed charges > $4,600 in the
                                                                                                             490                       93
                          first quarter of 2010


                        Total                                                                               2,113                      160

            Source: OIG analysis of Lucentis and Avastin Medicare Part B claims, 2010.

                          Medicare Payment Amounts and Policies. We obtained from CMS’s Web
                          site the first-quarter 2010 Medicare payment amount for Lucentis.

                          18
                            We ran simulations of our universe to determine the dividing point for each stratum (i.e.,
                          $190,000 for Lucentis and $4,600 for Avastin).


Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)                                   6
                  Because there is no national payment amount for Avastin when used to
                  treat wet AMD in a physician’s-office setting, we obtained first-quarter
                  2010 Medicare payment amounts and coverage policies for it from all
                  11 Medicare contractors that paid claims for Part B-covered drugs in the
                  first quarter of 2010. In addition, we obtained from CMS’s Web site the
                  (now-rescinded) fourth-quarter 2009 national Medicare payment amount
                  for Avastin when used to treat wet AMD.
                  Physician Surveys. We sent electronic surveys to the physicians in each
                  sample, using mailing addresses obtained from CMS. We made up to three
                  attempts to contact the physicians in each sample to increase the response
                  rate. Between January and April 2011, 131 of 160 (82 percent) physicians
                  who administered Lucentis responded to our survey and 122 of
                  160 (76 percent) physicians who administered Avastin responded to our
                  survey.
                  In the survey, we asked physicians to provide us with the total dollar
                  amount they purchased, the quantity they purchased, and any discounts or
                  rebates they received for Lucentis or Avastin in the first quarter of 2010.
                  We asked physicians who administered Avastin to describe the steps taken
                  to prepare Avastin for the treatment of wet AMD (i.e., compounding),
                  including identifying the entity responsible for compounding and the total
                  cost of compounding. We also asked physicians how many 1.25-mg doses
                  of Avastin were produced from the vials purchased. Additionally, we
                  asked physicians to describe the factors that they consider when choosing
                  Avastin instead of Lucentis for the treatment of wet AMD. 19
                  Data Analysis
                  Lucentis. Of the 131 responding physicians, 125 supplied complete data
                  that could be used in our analysis. 20 To calculate physicians’ first-quarter
                  2010 average acquisition cost for Lucentis, we summed acquisition costs
                  (net of discounts) among all respondents and divided that number by the
                  number of vials purchased. We compared the first-quarter 2010 Medicare
                  payment amount to physicians’ average acquisition cost and calculated the
                  percentage difference. We also calculated the acquisition cost of Lucentis
                  for each individual responding physician and determined the percentage of
                  physicians that purchased the drug at prices below the Medicare payment
                  amount. 21



                  19
                     We asked this question because Avastin is not approved by FDA to treat wet AMD.
                  Conversely, as Lucentis is approved by FDA to treat wet AMD, we did not ask why
                  physicians use Lucentis instead of Avastin.
                  20
                     Six responding physicians were excluded for not providing complete data.
                  21
                     All of the cost calculations were weighted based on the stratified sample selection.


Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)            7
                  Avastin. Of the 122 responding physicians, 113 supplied complete data that
                  could be used in our analysis. 22 We then calculated the average first-quarter
                  2010 Medicare payment amount for Avastin when used to treat wet AMD
                  based on payment amounts provided by 10 of the 11 Medicare contractors. 23
                  To calculate physicians’ average acquisition costs for Avastin in the first
                  quarter of 2010, we summed acquisition costs (net of discounts) among all
                  respondents and divided that number by the number of doses purchased. We
                  compared the average first-quarter 2010 Medicare payment amount to
                  physicians’ average acquisition cost and calculated the percentage
                  difference. In addition, we compared physicians’ average acquisition cost to
                  the rescinded national Medicare payment amount from the fourth quarter of
                  2009. 24
                  Additionally, we calculated both the average drug costs and average
                  compounding costs (i.e., the two components of physicians’ acquisition
                  costs) separately by (1) dividing the drug acquisition costs by the number of
                  doses purchased and (2) dividing compounding costs by the number of doses
                  purchased. 25
                  We reviewed each contractor’s payment amounts and policies for Avastin
                  used to treat wet AMD to determine the extent to which payment amounts
                  and payment policies differed. We calculated the difference in contractor
                  payment amounts and identified the payment and diagnosis codes that
                  contractors required physicians to use when submitting claims for Avastin
                  used to treat wet AMD.
                  We reviewed the reasons physicians reported for using Avastin instead of
                  Lucentis to treat wet AMD and determined the frequency of each factor. 26
                  Because Lucentis is approved by FDA for the treatment of wet AMD, we
                  did not ask a similar question of physicians who administered Lucentis.
                  Limitations
                  The analysis and results in this report are based only on physicians’ and
                  contractors’ self-reported data. We did not verify the accuracy or
                  completeness of physicians’ or contractors’ responses.


                  22
                     Nine responding physicians were excluded for not providing complete data.
                  23
                     One contractor bases its payment for Avastin used to treat wet AMD on cost and does not
                  have a single payment amount. Therefore, we excluded this contractor from our calculation of
                  an average Medicare payment amount. Several other contractors reported a single payment
                  amount that we included in our calculation, but noted that they paid based on cost if that
                  amount was lower than the usual payment amount.
                  24
                     All cost calculations were weighted based on the stratified sample selection.
                  25
                     Because of the small number of physicians who provided these data, we were unable to
                  project these results.
                  26
                     These calculations were weighted based on the stratified sample selection.


Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)            8
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)   9
                  FINDINGS
                  Physician acquisition costs for Lucentis were
                  5 percent below the Medicare payment amount in the
                  first quarter of 2010
                  On average, physicians paid $1,928 (net of discounts) per vial of Lucentis
                  in the first quarter of 2010. This was 5 percent below the Medicare
                  payment amount of $2,023 during that quarter. Nearly all physicians
                  (98 percent) purchased Lucentis at a price below the Medicare payment
                  amount during the time period under review.

                  Physician acquisition costs for Avastin were
                  53 percent below the average Medicare contractor
                  payment amount in the first quarter of 2010; however,
                  these acquisition costs were nearly four times the
                  rescinded national Medicare payment amount from the
                  previous quarter
                  On average, physicians paid $26 per dose of Avastin (including drug and
                  compounding costs) in the first quarter of 2010. This was 53 percent below
                  the average Medicare contractor payment amount of $55 per dose in that
                  quarter. Almost all physicians (96 percent) were able to purchase Avastin to
                  treat wet AMD at a price below the average Medicare contractor payment
                  amount.
                  In contrast, average physician acquisition costs substantially exceeded the
                  national Medicare payment amount of about $7 that CMS proposed and then
                  rescinded for the fourth quarter of 2009. The average acquisition cost—
                  $26 per dose—is almost 4 times greater than the rescinded national payment
                  amount. 27 Because CMS rescinded the national payment amount and policy,
                  there is currently no national payment amount for Avastin used to treat wet
                  AMD in a physician’s-office setting. Had the national payment amount been
                  implemented, physicians would have been reimbursed at 72 percent below
                  their costs.
                  Physicians who purchased Avastin in vials (as opposed to in prefilled
                  syringes) needed to compound the drug prior to administering it to
                  patients. For responding physicians from the sample, the two components
                  of the total cost—i.e., the average drug cost ($15 per dose) and the average
                  compounding cost ($10 per dose)—by themselves exceeded the rescinded
                  Medicare payment amount. We could not calculate separate drug and

                  27
                    This calculation assumes that the Medicare payment amount stayed the same from the
                  fourth quarter of 2009 to the first quarter of 2010.


Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)         10
                  compounding costs for physicians who purchased Avastin in syringes
                  because the drug in these syringes had already undergone the
                  compounding process prior to purchase.

                  Contractors’ payment amounts for Avastin differed by
                  as much as 28 percent, although payment policies
                  were similar
                  Generally, CMS is required to set a national Medicare payment amount for
                  Part B-covered drugs at 106 percent of ASP. However, as previously stated,
                  there is no national Medicare payment amount for Avastin used to treat wet
                  AMD in a physician’s-office setting; Medicare contractors must set the
                  payment amount in their jurisdictions. Consequently, payment amounts
                  differed by as much as 28 percent in the first quarter of 2010 (although 5 of
                  the 11 contractors had the same payment amount). 28 Ten Medicare
                  contractors reported per-dose payment amounts for Avastin ranging from
                  $45 (1 contractor) to $57 (7 contractors) per dose during the first quarter of
                  2010. The remaining contractor paid claims based on cost and did not
                  establish a specific payment amount.
                  Similarly, Medicare contractors established their own policies for the
                  coding and payment of Avastin claims when the drug is used to treat wet
                  AMD. All contractors instructed providers to use one of three HCPCS
                  billing codes (J3490, J3590, or J9035) on these claims. Additionally, all
                  contractors except one reported that they require a related diagnosis code
                  for wet AMD and/or procedure code on these claims. See Table 3 for a
                  description of contractor payment amounts and policies.
                 Table 3. Contractor Payment Amounts and Policies
                   Contractor              HCPCS Codes                    Payment Amount         Related Diagnosis or
                                                                                             Procedure Code Required
                   1                                 J3590                          $50.00                      Yes
                   2                                 J9035                          $57.46                      Yes
                   3                                 J9035                          $57.46                      Yes
                   4                                 J3590                          $45.00                       No
                   5                                J3490                           $50.00                      Yes
                   6                                J9035                           $57.46                      Yes
                   7                                J9035                           $57.46                      Yes
                   8                      J3590 or J3490 .                          $57.40                      Yes
                   9                                 J9035                          $57.46                      Yes
                   10                     J3590 or J3490                            $57.44                      Yes
                   11                     J3590 or J3490             Based on invoice cost                      Yes

                 Source: OIG analysis of Medicare contractor responses, 2010.




                  28
                     Two additional contractors had payment amounts within $0.06 of the five contractors with
                  the same payment amount.

Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)                11
                  The majority of physicians who administered Avastin
                  to treat wet AMD reported the substantial cost
                  difference compared to Lucentis as a primary factor in
                  their decision
                  Physicians reported several reasons for using Avastin rather than Lucentis to
                  treat wet AMD with cost being the primary factor (70 percent). Forty-five
                  percent reported efficacy/effectiveness as a reason, and 40 percent cited
                  patient insurance coverage. Additional reasons—cited by 1 to 14 percent of
                  physicians—included less frequent injections, patient preference, patient
                  condition, ease of use, and safety. One physician reported giving Avastin to
                  all patients unless they do not respond to that treatment.
                  Based on our analysis, the final cost of a dose of Avastin is about 1 percent
                  the cost of a dose of Lucentis, on average ($26 vs. $1,928). Physician
                  acquisition costs for Lucentis are much higher; those costs, in turn, are
                  passed on to the Medicare program and beneficiaries in the form of higher
                  program payments and coinsurance. Beneficiaries would pay approximately
                  $400 in coinsurance for each dose of Lucentis, compared to approximately
                  $11 in coinsurance for each dose of Avastin. One physician’s rationale for
                  choosing Avastin raised all of these concerns:
                           I believe that Avastin works as well if not better than Lucentis.
                           Why would I not want to save expenses for my patients, our
                           society, and government by using a product I believe is as effective
                           as the incredibly more expensive alternative? My personal income
                           would have been higher if I had used Lucentis, but I do not believe
                           that is the right thing to do.




Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)   12
                  CONCLUSION AND RECOMMENDATIONS
                  Lucentis and Avastin are the primary drugs that ophthalmologists use to treat
                  wet AMD, a leading cause of severe vision loss that affects millions of
                  Americans. Congressional interest, media reports, and other OIG work have
                  recently focused on the substantial price difference between Lucentis and
                  Avastin as well as on physician reimbursement concerns. Additionally, in
                  April 2011, NEI released the preliminary results of the CATT, which found
                  that Avastin was equally as effective as Lucentis in treating wet AMD.
                  Our findings indicate that in the first quarter of 2010, physicians could
                  purchase both Lucentis and Avastin at prices below their Medicare payment
                  amounts. The results also demonstrate that physicians’ acquisition costs for
                  Avastin used to treat wet AMD ($26) are substantially lower than acquisition
                  costs for Lucentis ($1,928). The majority of physicians who used Avastin
                  generally reported that they chose the drug because of its substantially lower
                  costs. Our findings also highlight the variability in contractor payment in
                  the absence of a national Medicare payment amount.
                  Given the lack of a national payment policy for Avastin used to treat wet
                  AMD in a physician’s-office setting and the substantial difference in cost
                  of the two drugs to Medicare and its beneficiaries, we recommend that
                  CMS:
                  Establish a National Payment Code for Avastin When Used for
                  the Treatment of Wet AMD
                  Generally, the law requires CMS to set a national payment amount for
                  Part B-covered drugs at 106 percent of ASP, an amount that is based on
                  actual sales data and is consistent nationwide. Currently, CMS does not
                  have a national payment amount for Avastin used to treat wet AMD;
                  consequently, the Medicare contractor in each jurisdiction has to set its
                  own payment amount. Most contractors paid nearly identical amounts for
                  Avastin used to treat wet AMD and had similar payment policies, although
                  in some cases contractor payment amounts differed by up to 28 percent.
                  We recognize that physicians incur additional costs (i.e., compounding
                  costs) when using Avastin to treat wet AMD and that these costs are not
                  factored into the drug’s ASP. The unique circumstances surrounding the
                  acquisition and administration of Avastin to treat wet AMD in a
                  physician’s-office setting would need to be considered when setting a
                  payment amount. To help establish a national payment amount, CMS
                  could use physician acquisition cost data collected by OIG.
                  Educate Providers About the Clinical and Payment Issues
                  Related to Lucentis and Avastin
                  Our findings show that physicians can purchase Avastin at a much lower
                  price than Lucentis and that many physicians are using Avastin because it

Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)   13
                  is a lower cost alternative. CMS could direct a provider education
                  initiative to educate ophthalmologists about the clinical issues regarding
                  Lucentis and Avastin (e.g., the results of the CATT) as well as the
                  implications of the wide variance in cost on the program and beneficiaries.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS did not concur with our first recommendation at this time, but did
                  note the existence of a unique code and payment amount for intraocular
                  doses of Avastin in the hospital outpatient setting. CMS concurred with
                  our second recommendation.
                  In not concurring with our recommendation to establish a national
                  payment code for Avastin when used to treat wet AMD, CMS noted that it
                  had previously taken steps to create a national payment code and amount
                  in 2009, but that the code was rescinded in light of beneficiary access
                  concerns.
                  CMS concurred with our recommendation to educate providers about the
                  clinical and payment issues related to Lucentis and Avastin. CMS stated
                  that it plans to inform claims processing contractors about our findings
                  related to Avastin payment amounts. Further, CMS noted that it will
                  instruct contractors to make our report’s findings available to providers.
                  We acknowledge that the previous attempt to establish a national payment
                  code and amount for the intraocular use of Avastin in physicians’ offices
                  raised concerns over beneficiary access and that the unique circumstances
                  surrounding the acquisition and administration of the drug would need to
                  be considered when setting a payment amount. However, given the lack
                  of a national payment policy, the substantial cost difference between these
                  two drugs, and the existence of a unique payment code and amount for
                  intraocular doses of Avastin in the hospital outpatient setting, we continue
                  to believe that CMS should establish a national payment code and amount
                  for Avastin when administered in a physician’s office that takes all of these
                  factors into account.
                  For the full text of CMS’s comments, see Appendix B.




Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)   14
                       APPENDIX A
Confidence Intervals
                                                                                                           Point         95% Confidence
Drug         Estimate Description                                             Sample Size
                                                                                                        Estimate                Interval
             Physician average acquisition cost in the first                                                                 $1,924.44 to
                                                                                      124*           $1,928.46
             quarter of 2010                                                                                                   $1,932.49
             Percentage difference between average
  Lucentis




             acquisition cost and the first-quarter 2010                              124*                 -4.67            -4.87 to -4.47
             Medicare payment amount
             Percentage of physicians whose average
             acquisition cost was below the first-quarter                             124*                98.34            89.42 to 99.76
             2010 Medicare payment amount
             Physician average acquisition cost in the first
                                                                                     106**               $26.05         $23.71 to $28.40
             quarter of 2010
             Percentage difference between average
             acquisition cost and the first-quarter 2010                             106**                -52.63         -56.91 to -48.35
             Medicare payment amount
             Percentage of physicians whose average
             acquisition cost was below the first-quarter                            106**                95.86            86.60 to 98.81
             2010 Medicare payment amount
             Percentage difference between average
             physician acquisition cost and the rescinded                            106**                -72.42         -74.90 to -69.94
             fourth-quarter 2009 Medicare payment amount
             Number of times the average acquisition cost
             exceeded the rescinded fourth-quarter 2009                              106**                  3.63              3.30 to 3.95
             Medicare payment amount
             Average physician cost of Avastin as a
             percentage of average physician cost of                                    ***                 1.35              1.23 to 1.47
             Lucentis
             Percentage of physicians who cited cost as a
  Avastin




                                                                                       113                69.99            58.73 to 79.27
             reason for administering Avastin
             Percentage of physicians who cited efficiency
             or effectiveness as a reason for administering                            113                45.13            34.39 to 56.34
             Avastin
             Percentage of physicians who cited patient
             insurance as a reason for administering                                   113                39.83            29.27 to 51.43
             Avastin
             Percentage of physicians who cited less
             frequent of injection as a reason for                                     113                12.05             6.66 to 20.83
             administering Avastin
             Percentage of physicians who cited patient
             preference as a reason for administering                                  113                13.66             7.43 to 23.76
             Avastin
             Percentage of physicians who cited patient
                                                                                       113                  7.83            3.29 to 17.51
             condition as a reason for administering Avastin
             Percentage of physicians who cited ease of
                                                                                       113                  0.77              0.22 to 2.67
             use as a reason for administering Avastin
             Percentage of physicians who cited patient
                                                                                       113                  1.15              0.41 to 3.17
             safety as a reason for administering Avastin

*The sample size is not 125 because 1 respondent reported not having purchased any Lucentis during the first quarter of 2010. This physician
submitted claims for Lucentis in the first quarter of 2010; however, according to this individual’s response, the drugs were purchased during a
previous quarter.
**The sample size is not 113 because 7 respondents reported that they did not purchase any Avastin during the first quarter of 2010. These
physicians submitted claims for Avastin in the first quarter of 2010; however, according to their responses, the drugs were purchased during a
previous quarter.
***This point estimate is based on 2 samples: 1 sample of 124 respondents (Lucentis) and 1 sample of 106 respondents (Avastin).

Source: Office of Inspector General analysis of physicians’ average acquisition costs and survey responses.




Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)                                        15
                    APPENDIX B
Agency Comments



    /-""'..,
   (~           DEPARTMENT OFHEALffi & HUMAN SERVlCFS                                    Centers for Medicare & Medicaid Servicas


                                                                                         Administrator
                                                                                         Washington. DC 20201




               DATE:
                             JAN 1 9 2012
               TO: 	         Daniel R. Levinson
                             In ~otor. General
                                                  /S/
               FROM: 	       Martl.Yn ~lfier
                             Acting AOIllinhtrator

               SUBJECT: 	 Office ofInspector General (OIG) Draft Report: "Medicare Payments for Drugs
                          Used to Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)"

               The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
               respond to the OIG Draft Report titled, Medicare Payments for Drugs Used to Treat Wet Age­
               Related Macular Degeneration (OEI-03-! 0-00360). OIG's objectives in this study were the
               following:

               1. To compare the Medicare payment amount for Lucentis to physicians' acquisition costs.
               2. To determine the average Medicare contractor payment amount for Avastin when used to treat
                   wet age-related macular degeneration (AMD) and compare it to physicians' acquisition costs.
               3. To examine Medicare contractor payment policies for Avastin when used to treat AMD.
               4. 	To examine the factors considered by physrcians when choosing Avastin for the treatment of
                   AMD.

               The OIG found that in the first quarter of2010, physician acquisition costs for Lucentis and
               Avastin were 5 and 53 percent below the Medicare payment amount, respectively. Medicare
               contractors' payment amounts for Avastin when used to treat wet AMD differed by as much as 28
               percent, although payment policies were similar. The majority of physicians who administered
               Avastin to treat wet AMD reported the substantial cost difference compared to Lucentis as a
               primary factor when deciding which drug to administer.

               OIG Rec9.m mendation

               Establish a national payment code for Avastin when used for the treatment of wet AMD.

               CMS Response

               We non-concur at this time with this recommendation tv establish a national price for Avastin
               doses used to treat macular degeneration in the office setting. As discussed in the report, eMS
               had taken steps to create a national price for intraocular doses of Avastin in 2009. The action
               was rescinded in light of beneficiary access concerns. We note that a related code (C92S7) is




Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEl-03-10-00360)                                    16
Agency Comments (continued)




Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)   17
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Director, Prescription Drug Pricing
                  Unit.
                  Edward K. Burley served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Philadelphia regional
                  office who contributed to the report include Daniel J. Mallinson; other
                  central office staff who contributed include Kevin Farber, Scott Horning,
                  Kevin Manley, and Tasha Trusty.




Medicare Payments for Drugs Used To Treat Wet Age-Related Macular Degeneration (OEI-03-10-00360)   18
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
